                     America the Beautiful


    FEDERAL LABOR RELATIONS AUTHORITY
               OFFICE OF INSPECTOR GENERAL


                     38th SEMIANNUAL REPORT
                        TO THE CONGRESS




                        April 1, 2007
                          through
                     September 30, 2007

Date Issued: October 30, 2007
                          EXECUTIVE SUMMARY
This is the 38th Semi-Annual report issued by the Office of the Inspector General (OIG)
at the Federal Labor Relations Authority (FLRA). This report, submitted pursuant to
section 5 of the Inspector General Act, summarizes the major activities and
accomplishments of the FLRA Inspector General for the period of April 1, 2007 to
September 30, 2007.

During this reporting period, the FLRA Inspector General closed and submitted the 2006
Financial Statement Report to the Chairman, FLRA on August 13, 2007. The FLRA
Inspector General, processed 1 hotline call and completed 3 out of 6 investigations
during this reporting period. During this reporting period, the Executive Counsel of
Integrity and Efficiency (ECIE) conducted an Advisory Review at the request of the
FLRA Inspector General to help update investigation processes and policy in
accordance with the Presidential Council of Integrity and Efficiency (PCIE)/ECIE
updated investigation requirements.

 During this reporting period, the FLRA Inspector General conducted two internal
surveys relating to FLRA issues. The first survey related to FLRA's management
compliance with Financial Information Security Management Act (FISMA). The second
survey conducted was the 2007 Employee Survey which has not yet been issued.
During this reporting period, the FLRA Inspector General also responded to specific
Inspector General surveys requested by the General Services Administration (GSA),
and Project of Government Oversight. The FLRA Inspector General conducted a
FISMA evaluation and template and submitted the 2007 FISMA Report to the FLRA
Chairman on September 11, 2007.

During this reporting period, the Inspector General provided management with a list of
opened oversight findings and recommendations for corrective actions from 1998 to the
current time and again requested management's response regarding the projected time
these corrective actions would be implemented. No response to this request has yet
been provided by FLRA management.

During this reporting period, contracted auditors issued the 2006 Financial Statement
Audit and began the 2007 Financial Statement audit. Information required for the 2006
Financial Statement Audit was not properly provided by management so that the audit
could be completed on time and issued during 2006. FLRA management is so far
responding properly to the 2007 Financial Statement Audit requirements.




                                38th Semi Annual Report
                                      Page 2 of 56
                  THE FEDERAL LABOR RELATIONS AUTHORITY

The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees worldwide, nearly 1.1 million of
who are exclusively represented in approximately 2,200 bargaining units. The FLRA is
charged by the Federal Service Labor-Management Relations (The Statute), section
7105, with providing leadership in establishing policies and guidance relating to Federal
sector labor-management relations, resolving disputes arising among Federal agencies
and unions representing Federal employees, and ensuring compliance with the Statute.

The FLRA represents the Federal government’s consolidated approach to labor-
management relations. The FLRA is “three components in one,” fulfilling legal statutory
responsibilities through the Authority, the Office of General Counsel and the Federal
Service Impasses Panel. The FLRA has 7 regional offices and one satellite office. The
FLRA also provides staff support to two other organizations – the Foreign Service
Impasses Disputes Panel and the Foreign Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed
for 5-year terms by the President, with the advice and consent of the Senate. One
member is appointed by the President to serve as Chairman of the Authority and as
Chief Executive and Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases concerning
the negotiability of collective bargaining agreement proposals, unfair labor practice
(ULP) allegations, representation petitions, and exceptions to grievance arbitration
awards. In addition, consistent with its statutory responsibility to provide leadership in
establishing policies and guidance, the Authority assists Federal agencies and unions in
understanding their rights and responsibilities under the Statute and resolving their
disputes through interest-based problem-solving rather than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also
houses the Office of Administrative Law Judges, the Office of Case Adjudication, and
the Office of the Solicitor, the Office of the Executive Director, and the Office of the
Inspector General.

Office of the Administrative Law Judges: The FLRA’s Administrative Law Judges
(ALJ’s) are appointed by the Authority to conduct due process hearings in accordance
with the Administrative Procedures Act and issue recommended decisions in cases
involving alleged unfair labor practices. ALJ’s also conduct hearings and issue,
recommended decisions involving applications for attorney fees and files pursuant to
the Back Pay Act or the Equal Access to Justice Act. In the course of their duties, ALJ’s
conduct pre-hearing conferences, issue subpoenas, rule on motions and evidentiary
issues, and engage in settlement efforts. An ALJ decision may be affirmed, modified, or
reversed, in whole or in part, by the Authority. If no exceptions are filed to an ALJ
decision, the decision is adopted by the Authority and becomes final and binding upon
the parties.

                                 38th Semi Annual Report
                                       Page 3 of 56
Office of Policy, Project & Performance Management: The Office of Policy, Project
& Performance Management is responsible for agency-wide strategic policy and
planning, including the role of Chief Human Capital Officer. The office also provides
oversight with respect to FLRA performance management initiatives. The office drafts,
reviews, and approves all agency-wide instructions and policies; oversees the
Chairman’s and the Administration’s initiatives; and develops agency-wide initiatives,
which upon the Chairman’s final approval, are implemented through the Office of the
Executive Director. The office also houses the agency’s congressional affairs function
and serves as the Chairman’s primary point of contact with the Solicitor, Executive
Director, EEO Director, and Inspector General.

Office of Case Adjudication. The Office of Case Adjudication was created in March
2007 to realign the Authority’s case control staff and professional case writer staff to
maximize the achievements of the Authority Decisional Component. The 3 FLRA
Member Offices still exist and retain a core staff. This change was implemented to
enable the Authority Decisional Component to consistently meet their goals and
improve the ability of the Authority to assign, track and follow-up on Arbitration,
Negotiability, Unfair Labor Practice and Representation cases that are submitted to the
Authority Decisional Component for resolution and disposition.

Office of the Solicitor: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S.
Courts of Appeals, and Federal District Courts. The office serves as the agency’s in-
house counsel, providing legal advice to all FLRA components. The Solicitor is also the
Designated Agency Ethics Officers under the Ethics in Government Act of 1978, as
amended.

Office of the Executive Director: The Office of the Executive Director provides
operational support to all components of the FLRA, including budget and finance,
human resources, procurement, administrative services, and information resources
management and is responsible for developing and implementing agency-wide
initiatives, such as strategic planning.

Office of the Inspector General: The Office of the Inspector General (OIG) is
responsible for directing and carrying out audits, investigations, evaluations,
inspections, surveys and other oversight activities related to the FLRA programs and
operations. In addition, the Inspector General is authorized to create and recommend
policies that promote economic, efficient, and effective agency programs, which prevent
fraud, waste, abuse and mismanagement. The Inspector General is responsible for
keeping the Chairman, FLRA and the Congress fully informed of problems and
deficiencies, as well as, the necessity for corrective actions. Public Law 100-504 and
the Inspector General Act, as amended, mandate the requirements, objectivity and
independence of Federal Agency Inspectors General. The Office of Inspector General’s
2007 budget was $283,282.00.



                                38th Semi Annual Report
                                      Page 4 of 56
The Office of the General Counsel: The Office of the General Counsel (OGC) is a
component of the FLRA. The General Counsel, who is appointed by the President with
the advice and consent of the Senate for a 5-year term, manages all OGC employees.
The OGC includes seven regional offices located in Atlanta, Boston, Chicago, Dallas,
Denver, San Francisco, and Washington, DC and one remote duty location in Brea,
California. The OGC investigates all unfair labor practice charges filed either by an
employee, a labor union or a federal agency and prosecutes all unfair labor practice
complaints before the Authority. The OGC is also responsible for receiving and
processing representation petitions and providing education services to the parties. The
General Counsel reviews all appeals and establishes case-handling policies and
procedures for the OGC.

The Federal Service Impasses Panel: The Federal Service Impasses Panel (FSIP or
the Panel) is composed of seven part-time Members who are appointed by the
President to serve for a 5-year term. One Member is appointed by the President to
serve as the Panel Chair. The Panel resolves bargaining impasses between Federal
agencies and unions representing Federal employees arising from negotiations over
conditions of employment under the Statute and the Federal Employees Flexible and
Compressed Work Schedules Act. If bargaining between the parties, followed by
mediation assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor Relations
Board, (the Board) was created by the Foreign Service Act of 1980 to administer the
Labor-Management Relations Program for Foreign Service employees in the U.S.
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture and Commerce. The Board is composed of three Members, including
the Chairman of the Authority who appoints the other two Members, who serve on a
part-time basis. The Chairman of the Authority also serves as Chairman of the Board.
The FLRA General Counsel acts as General Counsel for the Board, and the Authority
staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service Act of
1980. The Disputes Panel is composed of five part-time Members who are appointed
by the Chairman of the Foreign Service Labor Relations Board (the FLRA Chair). The
Disputes Panel resolves bargaining impasses between Federal agencies and Foreign
Service personnel in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture, and Commerce, over
conditions of employment under the Foreign Service Act of 1980. The FSIP staff
supports the Disputes Panel.

The FLRA's headquarters is located in Washington, D.C. The FLRA maintains regional
offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington,
D.C.


                                38th Semi Annual Report
                                      Page 5 of 56
FLRA MISSION STATEMENT

The Federal Labor Relations Authority exercises leadership under the Federal Service
Labor-Management Relations Statute to promote stable, constructive labor relations
that contributes to a more effective Government.

The mission of the FLRA is to carry out five primary statutory responsibilities as
efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Statute.

Under the Statute, the primary responsibilities of the FLRA include:

   •   Determining the appropriateness of units for labor organization representation;
   •   Adjudicating exceptions to arbitrator's awards;
   •   Resolving complaints of unfair labor practices; and
   •   Resolving impasses and issues relating to the duty to bargain.

OFFICE OF INSPECTOR GENERAL

The Federal Labor Relations Authority Inspector General:

   -   Conducts and supervises investigations, inspections, internal reviews, audits,
       surveys and evaluations of the programs and operations of the FLRA;

   -   Provides leadership and coordination, and recommends actions to management,
       which:

        1.   Promote economy, efficiency, and effectiveness in agency programs and
             operations;

        2.   Prevent and detect fraud, waste, abuse, and mismanagement of
             Government resources, and

        3.   Inform the Chairman, FLRA management, and the Congress regarding
             problems and deficiencies, and the progress of corrective actions.

The Inspector General’s Office is currently staffed with one full time Inspector General
and one full time Administrative Assistant. When required, the FLRA Inspector General
uses contractor auditors to perform FLRA audits. The FLRA, Inspector General
submitted a request for an increase in operational funding in the FLRA Office of
Inspector General to conduct at least one audit in addition to the Financial Statement
Audit. So far, no response from management has been received regarding this issue.




                                 38th Semi Annual Report
                                       Page 6 of 56
OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership, with
an independent and objective assessment of the organization’s efficiency and
effectiveness. This is accomplished through proactive oversight activities of FLRA
operational processes. The Inspector General provides necessary oversight and serves
as a catalyst for improving and maximizing the efficiency and integrity of FLRA
programs and operations. The goal of the Inspector General's work is to maximize the
effectiveness of FLRA programs by evaluating performance and identifying ways to
make these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and mismanagement of the
FLRA’s resources and operations, which could adversely impact the organization’s
integrity and ability to perform its mission in a timely, customer responsive manner.

The primary objectives of the Office of Inspector General are as follows:

   •   To evaluate the efficiency and effectiveness of FLRA programs and resource
       management and identify best practices, as well as causative factors, impeding
       the accomplishment of the FLRA mission;

   •   To assist the Chairman and FLRA management in carrying out their
       responsibilities by providing them with objectives and timely information on the
       conduct of FLRA operations, together with the Inspector General’s independent
       analysis, conclusions, and recommendations;

   •   To use evaluations, internal reviews, and more traditional assessment tools of
       audits, inspections, and investigations, to maximize oversight and strengthen
       system and process controls; and

   •   To support the Administration and Congress in maximizing Government integrity
       and efficiency and minimizing the occurrence of fraud, waste, abuse, and
       mismanagement.

AUDIT/INTERNAL REVIEW ACTIVITY

During this reporting period the FLRA Office of the Inspector General performed the
following audits and reviews in compliance with Government auditing standards:

2006 FLRA Financial Statements Audit                                        Closed

The Final Report of the 2006 Financial Statement Audit was issued on August 13, 2007.
This audit was very difficult this because FLRA Management transferred its financial
responsibilities to the Department of Interior National Business Center and management
had problems providing proper requested information to the auditors to enable them to
conduct a proper and secure audit.


                                 38th Semi Annual Report
                                       Page 7 of 56
During this reporting period, the FLRA Office of the IG’s contracted auditors conducted
the required annual audit of FLRA's compliance with Federal financial statement
requirements. The auditors had a difficult time trying to meet with the Chairman and
Executive Director of the Agency to discuss issues revealed both by previous financial
statement audits and this 2006 audit. The FLRA’s 2006 PAR report was issued by
management after the due date. The 2006 PAR report contained some required
information but most of the FLRA’s submissions to the auditors were not properly
addressed and there was no response from management on or about October 25, 2006

Neither the Chairman nor Executive Director of the FLRA would sign the 2006
Management Representation Letter. A significant amount of information requested by
and provided to the auditors after several requests were not proper documents and
contained several errors. Also, information did not properly focus on 2006 but related to
2007. The auditors requested several meetings with the Chairman of the Agency who
was also the Chief Financial Officer and were never able to meet to discuss the issues
of the audit. Because of the nature of the 2006 Financial Statement Audit, the auditors
affirmed that material weaknesses still exist and that management’s decision to have
the National Business Center handle the majority of FLRA’s financial program which
started in 2006 would help establish proper FLRA financial management program.

2007 FLRA Financial Statement Audit                                               Open

During this reporting period, the FLRA Office of the Inspector General contracted the
2007 Financial Statement Audit which began in July and is still being conducted. The
auditors reviewed the FLRA financial programs handled by the National Business
Center and received required documentation from them as well as from the new FLRA
Deputy Executive Director. It appears the FLRA financial program has improved and
hopefully because of the changes initiated during the past year (2006), and this year’s
Financial Statement Audit will be done effectively and timely.


2007 FLRA Inspector General FISMA Report                                         Closed

On September 12, 2007, the FLRA Inspector General completed and issued a 2007
evaluation of FLRA’s FISMA’s compliance. Previous to this evaluation, the FLRA
Inspector General requested funding several times from the FLRA Chairman to conduct
a contracted independent and external information security technology audit. Since the
FLRA Inspector General did not get any response to these requests, no contracted
FISMA audit was conducted and the FLRA Inspector General ended up conducting an
evaluation.

The 2007 FISMA review indicated that progress has taken place to correct previously
reported weaknesses identified by the FLRA Inspector General in previous years.
Improvement on the entire basic system has been addressed although it is not totally
resolved. Security policy has still not been approved by management and FLRA has
still not obtained a Security Officer and no certification and accreditation process has

                                 38th Semi Annual Report
                                       Page 8 of 56
been implemented. This includes non adherence to current FISMA, OMB or NIST
information technology, security, policy, guidance, and standards.    No security
configuration has occurred since 2005. In order to meet FISMA, OMB and NIST
requirements, the FLRA needs to provide a larger budget for Information Resource
Management.

The 2007 Inspector General FISMA evaluation did affirm that the previous extensive
spams have diminished and the systems now have spam quarantine summaries issued
to all FLRA employees every day. The evaluation also affirmed that no risk assessment
or review of systems had taken place during 2007 and the FLRA currently does not
have a CIO/Director, of Information Management to continue a focus on compliance
with NIST, OMB and FISMA requirements.

FLRA Inspector General FISMA Survey                                              Closed

During this reporting period, the FLRA Inspector General conducted a FISMA survey
with FLRA managers to provide specific information related to information security.
Most FLRA managers were aware of security policy on the FLRA internet which was
outdated but some managers were totally unaware that policy existed. Most managers
felt necessary security controls have been put in place over the last two years and were
very pleased with current security password access to computers. FLRA managers
basically felt that Information Resource Management employees were sincere and
always tried to respond to issues brought to their attention but could not respond unless
the current Executive Director approved the response provided by the former CIO.

The survey revealed that FLRA Regional Office managers and employees had s bit
more computer problems because their computer systems were attached to the
Headquarters computers and therefore all Regional Office time elements related to
eastern time. FLRA management should also consider providing wireless internets and
dial up access to laptops taken on travel for FLRA cases. Although most managers
agree that the FLRA has developed a better information security system compared to
previous years, the FLRA still has challenges relating to information security processes,
programs, website protection, e-mail information and working across FLRA boundaries.

This survey affirmed that the FLRA needs to address compliance with the Government
Paperwork Elimination Act, focus on FISMA, NIST, and OMB requirements, support the
FLRA Inspector Generals repeated requests for a budget to conduct an independent
contracted technical audit to focus on information technology and security issues.




                                 38th Semi Annual Report
                                       Page 9 of 56
FLRA Inspector General FLRA Employee Survey                                       Open

During this reporting period, the FLRA Inspector General conducted a survey for all
FLRA employees regarding human capital, performance, work environment and
management. Because of the current extensive work and investigations being done,
the Inspector General will hopefully be able to focus on and begin to address this survey
by the end of October, 2007. The majority of FLRA employees have responded to this
survey with an extensive amount of information. The results of this survey will be
issued to the Chairman, FLRA.

FLRA Inspector General Project on Government Oversight Survey                     Open

During this reporting period, as a result of management from the Project on Government
Oversight (POGO) requesting ECIE Inspectors General to voluntarily participate in their
Survey, the FLRA Inspector General did take the survey which focused on Inspector
General staff, budget and expenditures in the Office of Inspector General, contracted
audits and investigations, legal staff, IG website, independence and authority of the
Inspector General, response of management to Inspector General recommendations
and requests and the type of interaction of the Inspector General with the Agency
Head. This survey was completed and provided to POGO who stated they would
schedule a follow-up meeting with Inspector General respondents to discuss the survey.

FLRA Inspector General Investigation Manual/Policy                                Open

During this reporting period, the FLRA Inspector General began updating the FLRA
Office of Inspector General Investigation Manual to provide updated investigation
information in compliance with the PCIE/ECIE. This involves extensive information and
the Inspector General hopes to finish it properly during the initial part of 2008.

ADDITIONAL ACTIVITIES

Executive Counsel of Integrity and Efficiency (ECIE)

The FLRA Inspector General attends the ECIE monthly meetings on a regular basis to
make sure that the FLRA Office of Inspector General is current and aware of
requirements, operations and issues related to ECIE Inspectors General. The ECIE
also appointed the FLRA Inspector General to represent the ECIE on the PCIE/ECIE
Human Resource Committee and to be the Chairman of the 2007 ECIE Offices of
Inspectors General employee awards selections. The FLRA Inspector General also
attended several meetings relating to Inspectors General with David Walker and the
GSA, Clay Johnson, Chairman of the PCIE/ECIE and Deputy Director of the Office of
Management and Budget and Congress. The FLRA Inspector General also attended
several Congressional meetings relating to Inspector General Policy.
 .



                                 38th Semi Annual Report
                                       Page 10 of 56
PCIE/ECIE Human Resources Committee

The FLRA Inspector General is a member of the PCIE/ECIE Human Resource
Committee representing the ECIE in creating training regarding Human Resource
initiatives during this reporting period.

ECIE 2007 Awards for Inspector General Staff

The FLRA Inspector General was appointed as the Chairman of the ECIE 2007 Awards
Program. Along with IGs from Equal Employment Opportunity and the Federal
Communications Commission, the ECIE Awards Committee reviewed all performance
proposals submitted by ECIE Inspectors General. The results were provided to the
PCIE/ECIE Awards committee for the Awards Affair in October 23, 2007.

Training

During this Reporting Period, the FLRA Inspector General attended the following
conferences which did not require financial expenditures for the FLRA Inspector
General with the exception of the Agency provision of the 2007 Graduate School
Information Security Awareness Training and the PCIE/ECIE Conference 2007.

      Government Executive Human Capital
      GAO-IG Survey
      Government Executive Linking Budget to Performance
      Government Executive Healthcare Information Technology
      FLRA Management (Internal) Controls
      Government Executive Information Security Issues
      Government Executive Intelligence Security Issues
      EEO
      2006 Human Capital Survey
      2007 GAO Yellow Book
      2007 Graduate School Information Security Awareness Training
      PCIE/ECIE 2007 Conference

Oversight Corrective Actions

The FLRA Office of the Inspector General findings and recommendations from 1998 to
the 2007 were again submitted to FLRA management during this reporting period.
Management was asked to provide information to the FLRA Inspector General
regarding management actions related to addressing the oversight activities’ findings
and recommendations, some of which have been open from l998 to the present and
never addressed by FLRA management. The amount of corrective actions not
addressed by management as of September 30, 2007 is 172. Because of the extensive
amount of Inspector General corrective actions, management was advised to start with
2007 recommendations and work backwards. Management was also advised to
provide and discuss supporting information if they felt previous recommendations were

                                38th Semi Annual Report
                                      Page 11 of 56
no longer related to the FLRA environment. No response from management was
received relating to current or previous findings and recommendations during this
reporting period.

Security Issues

During this reporting period, no security issues occurred at the FLRA.




                                 38th Semi Annual Report
                                       Page 12 of 56
INSPECTOR GENERAL CORRECTIVE ACTIONS
Fiscal Year 2007

The following recommendations are the results of FLRA Inspector General
Oversight Activities (audits, internal reviews, and evaluations) which have to be
addressed by FLRA management.

     Report No.      Recommendation                   Target                Actual Date Status
     Issued Date                                      Completion
NARA Evaluation of   I/8(a) Develop a self-                                             Open
FLRA                 evaluation records
Section I            management checklist and
                     distribute.

                       (b) Conduct periodic           Conduct every 3                   Ongoing
                     evaluations.                     years on October 1.

                       (c) Ensure recommend-          Implement every                   Ongoing
                     dations are implemented.         3 years.

Section II           II /1: Ensure that the                                             Open
                     maintenance of records
                     documenting agency actions,
                     policies and procedures are
                     current and distributed to
                     staff.

                     II/2(a) Review working case                                        Open
                     files retention.


                         (b) Meet with office                                           Open
                     Directors to develop retention
                     schedules for all records not
                     in current schedule and get
                     recommendations for changes
                     to current schedule.

                        (c) Develop retention
                     schedules for new records                                          Open
                     and make changes to current
                     schedules.




                                38th Semi Annual Report
                                      Page 13 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

     Report No.             Recommendation                    Target     Actual Date   Status
     Issued Date                                            Completion

Section II – cont.       (d) Submit new schedule                                       Open
                      for Archivist’s approval.


                        (e) Include approved                                           Open
                      schedule in updated instruct-
                      ton 1323.1.

                      II/3: Require offices to                                         Open
                      separate temporary and
                      permanent case files.


                      II/4: Ensure that photographs                                    Open
                      that are a part of a permanent
                      case file conform to 36 CFR
                      § 1232.


                      II/5: Establish a Vital                                          Open
                      Records Program.


                      II/6: Identify vital FLRA                                        Open
                      records and enact measures to
                      protect and update them, and
                      ensure their availability
                      during emergencies.
                                                                                       Open
                      II/7: Consider the offsite
                      maintenance/storage of
                      copies of vital records.

Section III           III/1: Identify which FLRA                                       Open
                      records are not covered by
                      records schedule or the
                      General Record Schedules.


                                  38th Semi Annual Report
                                        Page 14 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

     Report No.            Recommendation                    Target          Actual Date   Status
     Issued Date                                           Completion

Section III – cont.   2. Develop and submit to                                             Open
                      NARA proposed records
                      schedules for unscheduled
                      records.


Chicago Regional      3. Formalize the creation                                            Open
Office                maintenance/disposition of
                      administrative records to the
                      same extent as program
                      records.

                      4. Offer records management                                          Open
                      guidance to staff on
                      electronic Records
                      Management and FOIA
                      procedures (including E-
                      FOIA amendments).

Management Letter     1. Update all FLRA              Newly established                    Open
4/19/98               delegations of authority,       policy & Planning
Instructions/MOU      memoranda of under-             position will
Update                standing, and instructions to   coordinate/division,
                      reflect current mission.        as appropriate, to
                                                      accomplish
                                                      revisions and up-
                                                      dates on a rolling
                                                      basis.

                      2. Distribute updated policy                                         Open
                      to all managers and make
                      them available to all
                      employees in one central
                      folder on the FLRA website
                      along with updated index.




                                 38th Semi Annual Report
                                       Page 15 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007


    Report No.               Recommendation                    Target      Actual Date     Status
    Issued Date                                              Completion
Later. dated: 9/28/99   1. Establish an accountability                    HR will work     Open
OPM Review of           system to assess management                       with Human
FLRA Human              utilization of human                              Capital Office
Resources Program       resources.                                        position,
                                                                          assigned in
                                                                          accordance
                                                                          with OPM
                                                                          guidelines on
                                                                          newly enacted
                                                                          legislation.

                        2. Study quality of                                                Open
                        performance feedback and
                        provide strategies for
                        ensuring sufficient quality
                        performance feedback is
                        provided to employees.

Audit of the FLRA       Review all current personnel                                       Open
FY 98 Financial         files to ensure payroll, leave
Statements and          and benefits information is
Central Services        correct and reconciles that
Fund (Report No.        which is maintained by
99-01-September         Denver Payroll Operations
1999)                   Division and take appropriate
                        action to recon ciliate any
                        overpayments or under
                        payment found. The results
                        of this effort should be
                        specifically reported to the
                        FLRA Inspector General.




                                   38th Semi Annual Report
                                         Page 16 of 56
Federal Labor Relations Authority
Office of Inspector General
Corrective Actions Status
Fiscal Year 2007

     Report No.            Recommendation                    Target     Actual Date   Status
     Issued Date                                           Completion
Audit of the FLRA     Review, update and revise as    .                               Open
FY 98 Financial       necessary, FLRA Regulation
Statements and        2301.1 Financial Manage-
Central Services      mint System to reflect
Fund                  contemporary policy,
                      including a requirement for a
                      documented yearly review of
                      financial management
                      statements by the Executive
                      Director and audits of
                      financial statements by an
                      independent source on a
                      yearly basis.

Internal Review of    1. Create centralized           Management does                 Open
FLRA External         Administrative Tracking         not concur that
Affairs May 2000      System.                         Agency needs a
                                                      centralized
                                                      administrative
                                                      tracking system
                      2. Develop/implement FLRA                                       Open
                      External Affairs Policy.

Internal Review of    1. Create Agency Policy for                                     Open
FLRA External         Compliance with the             .
Affairs May 2000      Paperwork Reduction Act


FLRA Information      13. Define rules of behavior                                    Open
System Security       for each system based on        .
Audit 2001            management’s defined level
                      of acceptable risk.




                                 38th Semi Annual Report
                                       Page 17 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

     Report No.            Recommendation                    Target     Actual Date   Status
     Issued Date                                           Completion
Internal Review of    1. Director, Budget &                                           Open
FLRA’s Travel         Finance Division(BFD)
Program               should prepare overarching
FY 2001               general agency travel
                      policies, which address
                      requirements, expectations
                      and prohibitions
                     2.Update, revise or cancel                                       Open
                     existing obsolete travel
                     instructions and guidance
                     including:
                     -FLRA travel Guideline
                     Handbook.
                      -Guidance on reimbursable
                      support.
                      3. Ensure that all lists and                                    Open
                      policies that are sent to the
                      National Business Center,
                      National Travel Service, Inc.,
                      and Citibank are current.
                      4. Director, BFD should                                         Open
                      discuss the use of FLRA’s
                      formatted travel
                      reimbursement vouchers and
                      address any deficiencies with
                      the Director, IRM.
                      5. FLRA Travel Manager                                          Open
                      should request that National
                      Travel website to
                      accommodate FLRA’s
                      travelers needs and ensure
                      that al FRLA employees are
                      trained to use the website




                                 38th Semi Annual Report
                                       Page 18 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year -2007
    Report No.             Recommendation                    Target     Actual Date   Status
    Issued Date                                            Completion
Internal Review of    6. Require FLRA travelers to
FLRA’s Travel         use Hotel Occupancy tax                                         Open
Program FY 2001       elimination forms while on
                      government travel. Compile
                      list of states that honor and
                      fail to honor such forms and
                      distribute such forms and
                      distribute to FLRA
                      employees.
                      8. Director BFD should work
                      with National Business                                          Open
                      Center to set criteria,
                      standards and policies for
                      travel reimbursement.
                      1. Conduct a cost benefit                                       Open
                      analysis for automating the
                      procurement system and
                      implement if cost effective

                      2. Establish a MOA with an
                      executive Agency to
                      administrate FLRA contract
                      appeals.

                      3. Brief FLRA management
                      on basic federal procurement
                      requirements.

Management Letter 1. Create internal policy                                           Open
Fair Act Compliance (include competition plan) for
                    contracting our commercial
                    activities.
                    2. Annually see management
                    input to validate inherently
                    governmental and
                    commercial activities.



                                 38th Semi Annual Report
                                       Page 19 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

    Report No.              Recommendation                   Target       Actual Date   Status
    Issued Date                                            Completion

Management Letter 3. Perform cost analysis on                                           Open
Fair Act Compliance positions identified in the FY
                    2002 and future Fair Act
                    submission private sector as
                    well as federal organizations
                    before contracting with
                    federal agencies.

                      4. Include justifications                                         Open
                      retaining defined non-
                      inherently government
                      positions in the FLRA.
                      5. Assign future               .
                      responsibility for competitive                                    Open
                      outsourcing including Fair
                      Act Compliance, to the FLRA
                      Contracting Officer.


                      1. Provide Regional Office      Proposed Action                   Open
                      Personnel contemporary          Plan to implement
                      training in customer service,   Investigation
                      communication, behavioral       findings deferred
                      and other pertinent human       by Chairman,
                      capital training.               FLRA.

                      2. Provide Atlanta Regional                                       Open
                      Office employees training on
                      federal, FLRA and OGC
                      administrative requirements
                      including employee rights
                      and responsibilities.




                                 38th Semi Annual Report
                                       Page 20 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                         Target     Actual Date Status
Issued Date                                                Completion
Management Letter     1(3). Provide new Atlanta                                     Open
Fair Act Compliance   Regional Office employees
Cont.                 with on site training on OGC
                      unfair labor practice charge
                      and representation case
                      processing policies.

                      2(5). Obtain qualified person                                 Open
                      to perform a Myers Briggs
                      Analysis and use this analysis
                      for employees to understand
                      behavioral interactions,
                      perceptions and reactions.


Internal Review of    1. Create and provide FLRA                                    Open
Debt Collection       employees with policy/
November 2002         guidance on the use of
                      Government credit card (both
                      previous IG audit/internal
                      reviews on Simplified
                      Acquisitions and the Travel
                      Program recommended this.)
                      FLRA policy should
                      incorporate the cancellation
                      of a credit card if an
                      individual misuses the card
                      more than once.
                      2. Require the FLRA                                           Open
                      Contracting Officer and
                      Travel Manager to conduct
                      monthly reviews on
                      government credit card usage
                      by FLRA employees, pursue
                      questionable items and
                      document findings. The
                      Executive Director should
                      review this document.


                                 38th Semi Annual Report
                                       Page 21 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007
Report No.              Recommendation                         Target     Actual Date Status
Issued Date                                                  Completion
Internal Review of      Require supervisors to
Debt Collection         provide employees                                             Open
November 2002           information on the use and
                        misuse of the government
                        credit card and provide more
                        oversight over employees
                        who have misused their cards.
                        1. Budget and Finance
                        Division (BFD) should
                        generate transactional report
                        for General Ledger Accounts
                        #4870 and 4880 to determine
                        the nature of transactions
                        being recorded, processed
                        and changed that are needed
                        to properly record transaction
                        affecting these accounts.

                        2. BFD should accrue for
                        annual invoices received and
                        not yet processed with a fiscal
                        year subsequent processing
                        date.

                        3. BFD should check
                        Citibank invoices received
                        and not yet processed by the
                        end of the fiscal year and
                        establish dollar thresholds
                        that have not been accrued in
                        the previous invoice accrual
                        and determine if goods or
                        services have been received
                        prior to the end of the fiscal
                        year. This determination
                        should be documented.




                                   38th Semi Annual Report
                                         Page 22 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007
Report No.              Recommendation                          Target     Actual Date Status
Issued Date                                                   Completion
Internal Review of      4. BDF should review old,                                      Open
Debt Collection         undelivered orders and
November 2002           deobligate them prior to fiscal
                        year end if they are no longer
                        valid.

                        5. BDF should resend                                           Open
                        invoices for Federal Agency
                        receivables and have the
                        National Business Center
                        (Denver) pursue these
                        collections.

                        6. FLRA should request two                                     Open
                        copies of non-reproducible
                        reports in order to ensure
                        support documents are
                        retained. BDF should pursue
                        retaining electronic versions
                        of system-generated reports.

                        7. FLRA should implement                                       Open
                        procedures to ensure that both
                        the journal entries for the
                        disposition of fixed assets and
                        correction of expenditures
                        erroneously capitalized as
                        fixed assets are performed in
                        a timely manner to ensure
                        proper statement of the
                        general ledger at the fiscal
                        year end.

                        8. Expenditures recorded to                                    Open
                        fixed assets should be
                        properly reviewed prior to
                        recording to ensure each of
                        the expenditures meet the
                        definition of capitalized
                        assets.

                                    38th Semi Annual Report
                                          Page 23 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                          Target     Actual Date Status
Issued Date                                                 Completion
Internal Review of    9. The Administrative                                          Open
Debt Collection       Services Division should
November 2002         review copiers and other
                      office automation centrally
                      and the number of vendors
                      should be minimized to
                      obtain economic purchases
                      and efficiencies in
                      maintenance and operation.

                      10. FLRA should identify                                       Open
                      furniture on a replacement
                      cycle with the Agency’s
                      Central Services Fund to
                      provide a systematic method
                      for budgeting for and
                      replacing furniture.

                      11. BFD should implement                                       Open
                      the use of electronic
                      spreadsheets as a standard for
                      accounting documentation to
                      allow for easy documentation
                      of explanatory notes and
                      imputing changes.

                      12. FLRA should include an                                     Open
                      amount in the accrued FECA
                      liability for the estimated
                      fourth quarter FECA claim
                      costs.

                      13. FLRA should record                                         Open
                      liability for future workers’
                      compensation.




                                  38th Semi Annual Report
                                        Page 24 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                 Target       Actual Date Status
Issued Date                                          Completion
Internal Review of    14. The FLRA should pursue                              Open
Debt Collection       the filling of the BFD
November 2002         Accounting Officer position.
                                                     .
                      15. The FLRA should                                     Open
                      enhance the Accounting
                      Manual with the detail of
                      specific procedures for the
                      department staff.

                      16. FLRA should develop                                 Open
                      written budget information
                      and execution policy that
                      outlines the process; states
                      procedures utilized and
                      clarify FLRA approaches and
                      methodology.

                      17. Significant changes or                              Open
                      direction from the initial
                      budget submission should be
                      communicated to cost center
                      managers in a timely manner.

                      18. FLRA components and                                 Open
                      subcomponents should
                      develop data to support
                      effective and justifiable

                      19. The FLRA should
                      consider separating the
                      information Technology
                      budget from the Agency
                      Central Services Fund and
                      place it under the
                      responsibility of the Chief
                      Information Officer.




                                 38th Semi Annual Report
                                       Page 25 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.           Recommendation                   Target       Actual Date Status
Issued Date                                           Completion
                                                                               Open
Executive Summary    1. FLRA Authority
FLRA Case            Members/Chief Counsels
Processing           should develop standard
                     policy and timeliness for case
                     processing, including the
                     average length of time the
                     case should be at various
                     stages of its process.
                     2. The FLRA Chief Counsels                                Open
                     need to work with the
                     Director, Case Control Office
                     to expand the current system
                     and establish a complete and
                     interactive automated Case
                     Tracking System.
                     3. FLRA Authority Members                                 Open
                     should standardize their case
                     processes, internal goals,
                     internal controls and
                     performance standards for all
                     of their employees.
                     4. FLRA Authority Members                                 Open
                     should create a standard case
                     processing policy (or manual)
                     to ensure that current and new
                     employees perform their
                     duties appropriately.
                     5. The Screening Committee                                Open
                     should be required to provide
                     more merit review and legal
                     issue information on the cases
                     they review.




                                38th Semi Annual Report
                                      Page 26 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
Executive Summary     6. The Authority cases                                     Open
FLRA Case             should be reviewed
Processing Cont.      thoroughly by each Chief
                      Counsel

                      7. Input from the Members at                               Open
                      the time of case assignment
                      and more interaction among
                      the Members and their senior
                      staff would eliminate
                      repetition.

                      8. The Authority should                                    Open
                      consolidate the issuance of
                      the Issue Memorandum for
                      non-complex cases and
                      implement a Member/Chief
                      Counsel Meeting.

                      9. The Director, Case                                      Open
                      Control Office, Members’
                      Senior Chief Counsels should
                      interact again with the Chief
                      Information Officer and
                      Director, Information
                      Resources Management to
                      improve the current case
                      tracking system to support
                      Authority Member Office
                      case tracking process.

                      10. Add an additional FTE to                               Open
                      the Collaborative Alternative
                      Dispute Resolution Office to
                      enable the Authority process
                      of resolution to expand.




                                 38th Semi Annual Report
                                       Page 27 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
Executive Summary     11. The Authority should                                    Open
Cont.                 plan a training conference for
                      Federal agency.

Follow-up on FY       1. Human Resources                                          Open
2000 FLRA IG          Division should prepare a
Review of FLRA’s      work plan specifically related
Human Capital         to the FY 2000 Findings and
                      Recommendations.

                      2. Establish an integrated                                  Open
                      senior leadership/
                      management team to address
                      human capital issues and
                      provide justified
                      recommendations to the
                      Chairman.

                      3. Reinstate monthly                                        Open
                      management meetings during
                      which current management
                      issues are discussed and each
                      manager is required to brief
                      all managers on major
                      activities.

                      4. FLRA components should                                   Open
                      be briefed on behavior and
                      and engage in personality
                      testing. (Myers Briggs Type
                      indicator and/or Strong
                      Interest Inventory). This
                      could be done in-house or at
                      an offsite meeting.




                                 38th Semi Annual Report
                                       Page 28 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
Follow-up on FY       5. The Agency needs to                                       Open
2000 FLRA IG          compile more human capital
Review of FLRA’s      statistics to make proper
Human Capital         human capital decisions. The
Cont.                 following data should be
                      considered to be collected by
                      HRD:

                      --workforce data,
                      --skills inventory,
                      --dates and dispersal of
                         performance appraisal,
                      --yearly vacancies and time
                         time period required to fill
                         them,
                      --yearly data on number and
                         cost of bonuses, awards and
                         other incentives,
                      --yearly statistics on grieve
                        ances,
                      --EEO complaints and costs
                      in dollars,
                      --costs of promotions and
                         within grade increases,
                         and amount per employee
                         spent for training and its
                         percentage of the operating
                         budget.

                      6. Update the FLRA                                           Open
                      Strategic Plan and have
                      management revise
                      component action plans and
                      employee work and
                      performance plans with focus
                      on agency-wide results.




                                 38th Semi Annual Report
                                       Page 29 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
Follow-up on FY       7. The Chairman, FLRA                                      Open
2000 FLRA IG          should appoint a Human
Review of FLRA’s      Capital Officer and/or Senior
Human Capital         Management Committee who
Cont.                 should address Agency-wide
                      human capital issues and
                      work with the Director, HRD
                      to ensure agency-wide
                      compliance with the
                      President’s Management
                      Agenda’s human capital
                      standards.

                      8. FLRA/HRD should                                         Open
                      perform an Agency-wide
                      employee skills inventory. It
                      definitely would provide a
                      baseline for skill needs,
                      employee training and future
                      hiring.

                      9. All FLRA supervisors                                    Open
                      should be required to provide
                      employees with work plans
                      and individual development
                      plans.

Internal Review of    1. Add contemporary safety,                                Open
FLRA’s                health, and security
Occupational Safety   information including the
& Health Issued       Emergency Plan and a current
August 2003           list of FLRA policy to the
                      website as well as the
                      Orientation Package given to
                      new employees.




                                 38th Semi Annual Report
                                       Page 30 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007
Report No.              Recommendation (#)              Target       Actual Date   Status
Issued Date                                             Completion
                        2. Increase Agency-wide                                    Open
                        training for FLRA safety and
                        health programs. Ensure that
                        all supervisors are
                        knowledge, aware of OSHA
                        requirements and provide
                        contemporary information to
                        their staffs. Include volunteer
                        training to CPR and increase
                        safety evacuation information
                        to include maps of areas to
                        ensure employee safety.

                       3. FLRA/HRD should ensure                                   Open
                       that all OSHA statistics and
                       records be maintained so that
                       the FLRA is in compliance
                       with the OSHA requirements.

                       4. FLRA/HRD should                                          Open
                       expand its definition of
                       sensitive positions to, at least,
                       include Security Officers,
                       Computer Information
                       Officers and both senior and
                       line managers and comply
                       within its Drug Free
                       Workplace Plan by randomly
                       testing at least one person per
                       year.

                       5. The FLRA Executive                                       Open
                       Director and Director
                       Administrative Services
                       Division should review the
                       Interagency Agreements with
                       the Department of Health and
                       Human Services and ensure
                       that all stated provisions are
                       current and addressed.

                                   38th Semi Annual Report
                                         Page 31 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
                      6. The FLRA Safety                                          Open
                      Program Manager should
                      ensure that all FLRA sub
                      components maintain
                      standardized sufficient and
                      accessible safety/protective
                      equipment.

                      7. FLRA management should                                   Open
                      prioritize the development of
                      an FLRA Continuity of
                      Operations (Contingency)
                      Plan.

                      8. Annual FLRA facility                                     Open
                      (Headquarters and Regional
                      Offices) safety checks should
                      be performed by the building
                      Security Officer or FLRA
                      Security Officer, and
                      maintained/documented and
                      followed up by ASD’s
                      Security Officer.

Internal Review of    2. Because of the significant                               Open
FLRA’s                amount of travel by some
Government            agency component and
Vehicles              subcomponent employees,
August 2003           appropriate agency internal
                      travel policy and statistics
                      need to be defined and
                      maintained by all three
                      components of the Agency to
                      properly assess travel costs
                      and budget travel allocations.




                                 38th Semi Annual Report
                                       Page 32 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.              Recommendation                   Target       Actual Date   Status
Issued Date                                              Completion
Internal Review of      2(3). FLRA Budget and                                       Open
FLRA’s                  Finance Division Director
Government              should semiannually monitor
Vehicles                travel transportation mileage
August 2003             logs and related costs, travel
                        safety and security incidents
                        and other related expenditures
                        cost and provided internal
                        semi-annual reports to the
                        Chairman, FLRA, Counsel,
                        Chairman of FSIP, and
                        Director of Administrative
                        Law Judges.

                      3(4) Director of                                              Open
                      Administrative Services
                      Division should:
                            (a) Work with building
                      owners and maintenance
                      personnel to ensure that
                      parking garage exterior doors
                      remained locked and secured.
                            (b) Install door locks on
                      all interior doors.
Office of the General 1. The FLRA should comply                                     Open
Counsel Internal      with Public Law 106346 and
Review of Remote      create policy for employees
Duty Locations        who are or will volunteer to
March 2004            work full-time at home prior
                      to making a decision to
                      eliminate their remote duty
                      stations.




                                   38th Semi Annual Report
                                         Page 33 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
Contracting           1. FLRA management should                                   Open
Report                focus on creating and/or
August 2004           updating policy for their
                      procurement operations and
                      providing this policy to
                      contracting employees so that
                      the subject employees are
                      properly informed of
                      changes. Contract file
                      information should be
                      standardized and submitted
                      proposals should contain
                      documented evaluations.
                      Task order written by FLRA
                      managers should include
                      evaluation criteria by which
                      contractors will be evaluated.

                      2. The FLRA Contracting                                     Open
                      Officer needs to understand
                      that , in spite of his/her
                      authority and independence to
                      handle claims and make final
                      decisions, FLRA
                      management should be
                      informed of contract related
                      problems and claims that
                      have been filed against the
                      Agency prior to processing,
                      especially when the
                      alternative dispute resolution
                      process is to be used.

                      3. FLRA management should                                   Open
                      focus more on human capital
                      and customer orient
                      relationships. Also FLRA




                                 38th Semi Annual Report
                                       Page 34 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.             Recommendation                    Target       Actual Date   Status
Issued Date                                              Completion
Contracting            management should be aware
Investigation Report   of and support appropriate
August – 2004          alternative dispute resolution
(continued)            for claims as they do for
                       unfair labor practice charges
                       and arbitration cases, which
                       provide greater satisfaction to
                       the filing party, innovative
                       methods of resolving disputes
                       and greater efficiency in
                       achieving settlements.

                       4. FLRA management should                                    Open
                       ensure that senior appointed
                       managers have knowledge
                       and/or are provided with
                       necessary training in the
                       program they are responsible
                       for managing.
FY 2004 Audit of       1. FLRA CIO should                                           Open
FLRA Security          develop and maintain:
Programs
September 30, 2004          (a) A visitor log that all
                       data center visitors are
                       required to sign upon arrive
                       and departure;
                            (b) An emergency
                       contact line list; and.
                            (c) ASD develop
                       effective policies for
                       managing Kastle Keys and
                       direct ASD security personnel
                       to implement procedures in
                       accord with the policies
                       adopted.




                                  38th Semi Annual Report
                                        Page 35 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
FY 2004 Audit of      1(2). FLRA CIO should:                                      Open
FLRA Security
Programs                  (a) Fully develop
September 30, 2004    disaster recovery, IT
Cont.                 contingency business
                      continuity, and continuity of
                      operations plan;

                           (b) Provide training to
                      enable personnel to
                      effectively implement all
                      plans and require periodic
                      training; and.

                           (c) After each plan is
                      implemented, conduct and
                      document testing to ensure
                      that each plan is responsive,
                      and periodically re-evaluate
                      plans and keep plans current.

                      2(4). FLRA CIO should                                       Open
                      Perform a C&A review in
                      accordance with NIST
                      standards and authorizes the
                      general support system for
                      processing.

                      3(5). FLRA should ensure
                      that a management official                                  Open
                      authorizes in writing the use
                      of each general support
                      system based on an
                      acceptance of risks identified
                      with the system certification
                      process as described by
                      NIST.



                                 38th Semi Annual Report
                                       Page 36 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion

FY 2004 Audit of      4(6). FLRA should ensure                                   Open
FLRA Security         that staff members adhere to
Programs              documented policies and
September 30, 2004    procedures for performing
Cont.                 backups of network file and
                      mail servers.

                      5(7). FLRA CIO should:                                     Open

                          (a) Develop a program to
                      provide annual security
                      awareness training to all
                      FLRA employees in
                      accordance with OMB
                      requirements; and.
                          (b) Develop proper
                      procedures to accurately
                      assess and report on the
                      program’s level of attendance
                      and effectiveness.

                      (6)8. FLRA CIO should                                      Open
                      develop a complete Security
                      Program Plan, arrange for
                      appropriate personnel to
                      review it, revise the plan
                      accordingly and obtain
                      approval cognizant executive
                      management.

                      (7)9. FLRA CIO should                                      Open
                      develop, document and
                      implement an incident
                      response plan consistent with
                      NIST and OMB criteria.




                                 38th Semi Annual Report
                                       Page 37 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007
Report No.              Recommendation                Target       Actual Date   Status
Issued Date                                           Completion
FY 2004 Audit of        8(10). FLRA should to:                                   Open
FLRA Security
Programs                     (a) Take immediate
September 30, 2004      action to ensure timely
Cont.                   development and
                        implementation of policies
                        and procedures necessary to
                        establish and support FLRA’s
                        information security program;
                        and
                             (b) Develop and
                        implement policies and
                        procedures to track evaluate,
                        and monitor FLRA’s
                        information and information
                        systems security program in
                        accordance with OMB
                        Circular A-130, Appendix III;
                        and
                             (c) Ensure proper and
                        timely reporting to OMB and
                        Congress.

                      9(11). FLRA CIO should:                                    Open

                           (a) Develop policies and
                      procedures requiring that
                      patches be properly tested in
                      a test environment before
                      being placed into production.
                           (b) Develop a test lab to
                      adequately test patches; and.
                           (c) Provide training to
                      individuals to ensure that
                      multiple personnel can
                      perform critical functions and
                      activities can be performed
                      by multiple personal.




                                 38th Semi Annual Report
                                       Page 38 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007
Report No.              Recommendation                  Target       Actual Date   Status
Issued Date                                             Completion
FY 2004 Audit of        10(12). FLRA CIO should:                                   Open
FLRA Security                (a) Develop and
Programs                implement a formal SDLC
September 30, 2004      methodology based on NIST
Cont.                   guidance and ensure the
                        policy addresses the
                        following elements:
                              - Sensitivity of data to
                        be processed in the system.
                              - Resources required
                        for adequately securing the
                        system,
                              - Input from the
                        equivalent of an Investment
                        Review Board,
                              - Authorization for
                        software modification
                        documentation and
                        maintenance,
                              - Budget request to
                        include security resources for
                        the system,
                              - Security controls
                        consistent with and integral to
                        senior management’s
                        standards, and.
                              - Security
                        requirements to be included
                        in solicitation documentation.
                              -Develop and
                        implement a formal change
                        control policy outlining the
                        procedures needed to ensure
                        that system configuration
                        changes are properly
                        documented, authorized,
                        approved, and tested before
                        being moved into production
                        or implemented.



                                  38th Semi Annual Report
                                        Page 39 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
FY 2004 Audit of      11(13). FLRA Management                                    Open
FLRA Security         should: suspend access or
Programs              implement adequate
September 30, 2004    procedures to mitigate risks
Cont.                 associated with CIO’s access
                      privileges to the network
                      domain servers and local
                      account passwords and follow
                      through with the Windows
                      2000 migration and rollout
                      initiatives to ensue that
                      current passwords that have                                Open
                      been compromised due to the
                      departure of the network
                      manager do not continue to
                      present the Agency with a
                      major security risk.

                      12(14). FLRA CIO should:

                           (a) Develop policies and
                      procedures requiring periodic
                      review of user access
                      controlled, and.




                                                                                 Open




                                 38th Semi Annual Report
                                       Page 40 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
FY 2004 Audit of           (b) Analyze generic
FLRA Security         accounts currently active on
Programs              the network operating
September 30, 2004    system to ensure that they
Cont.                 are appropriate and that
                      account access are
                      controlled and monitored.

                      13(15) Management needs                                     Open
                      to focus on information
                      technology to improve
                      FLRA information
                      technology systems.
                      Management should review
                      previous IG Reports, which
                      contain information security
                      findings and
                      recommendations.

                      14(16) FLRA should obtain                                   Open
                      the proper testing material
                      and scan all FLRA
                      laptops/computers
                      throughout the Agency to
                      see if they contain improper
                      websites.

2005- Access of       1. Management should                                        Open
Improper Websites     reinstate technology as an
                      integral part of its strategic
                      plan.

                      2. Management should                                        Open
                      reinstate its sub component
                      Technology Committee
                      which could provide mission
                      related problems and
                      requirements to the FLRA
                      CIO.

                                  38th Semi Annual Report
                                        Page 41 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                Target       Actual Date   Status
Issued Date                                         Completion
2005 Financial        1. Executive management                                  Open
Statement             should start the agency
Recommendations       towards FISMA compliance
                      by providing support for
                      correcting the out-of-
                      compliance situation. This
                      support should consist of
                      memoranda, policy and
                      documented directions, but
                      also of financial and
                      budgetary resource
                      allocation for the goods,
                      services, and personnel
                      needs of the agency to
                      correct the situation. This
                      support, along with the
                      undertaking of corrective
                      actions by the Chief
                      information Officer and
                      other FLRA Staff, should be
                      focused on implementing
                      the recommendations
                      provided to the FLRA from
                      the fiscal year 2004 FISMA
                      Audit Report.

                      2. Executive management                                  Open
                      should establish who is to
                      perform Chief Financial
                      Officer duties and
                      responsibilities for the
                      agency. This individual
                      should have the appropriate
                      knowledge and skills needed
                      for fulfilling all the
                      necessary duties and
                      responsibilities.



                                38th Semi Annual Report
                                      Page 42 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
2005 Financial        3. Executive management                                     Open
Statement             should ensure agency policies
Recommendations       and procedures are kept
Cont.                 current and in accordance
                      with existing laws and
                      regulations. This assurance
                      would entail monitoring
                      existing policies and
                      procedures and identifying
                      those that are in need of
                      revision. The same should be
                      for those policies and
                      procedures submitted by
                      agency Directors concerning
                      changes needed for adoption
                      of the policy or procedure by
                      the agency.                                                 Open

                      4. FLRA should ensure
                      continuity of its operations
                      through having better support
                      providers and their services.
                      This support could be
                      provided in many different
                      ways, including obtaining
                      external system support
                      providers and their services.
                      As an interim measure, other
                      FLRA employees should be
                      given the appropriate training
                      and guidance to establish
                      adequate support for the
                      continued functions. This
                      would ensure that there is a




                                 38th Semi Annual Report
                                       Page 43 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
2005 Financial        sufficient “backup knowledge
Statement             base” in other employees in
Recommendations       the event of a loss of a single
Cont.                 critical employee.

                      5. FLRA should determine                                     Open
                      the best system source for its
                      overall accounting,
                      budgetary, and financial need
                      on a going forward basis.
                      This may involve determining
                      other options available from
                      the U.S. Department of the
                      Interior as well as alternative
                      private sector or
                      governmental sources that
                      can efficiently meet FLRA’s
                      needs.

                      6. Detailed fixed assets                                     Open
                      records should be maintained
                      and reconciled to the general
                      ledger on a timely basis to
                      ensure accurate accounting
                      for assets. These records
                      should be timely and
                      appropriate updated each
                      period for asset additions and
                      subtractions resulting from
                      acquisitions, trade, disposals,
                      etc.




                                 38th Semi Annual Report
                                       Page 44 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                     Target       Actual Date   Status
Issued Date                                              Completion
2005 Financial        7. Management should                                          Open
Statement             address cash disbursement
Recommendations       procedures, accounts payable
Cont.                 procedures and internal
                      controls in its development of
                      an improved system of fiscal
                      and accounting management.
                      The process of accounts
                      payable should be core
                      function that is contained
                      within the accounting system.

                      8. The Executive Director
                      should examine the                                            Open
                      procurement process between
                      the Divisions of Budget and
                      Finance and Administrative
                      Services and ensure the
                      proper policies and
                      procedures are in place to
                      provide that FLRA
                      obligations are recorded into
                      the agency accounting
                      records in an accurate and
                      timely manner. In addition,
                      the Executive Director should
                      ensure that the policies and
                      procedures include adequate
                      internal control and
                      monitoring

                      9. Information needed for                                     Open
                      each quarter closed should
                      include all necessary updated
                      information for fair statement
                      of the financial position of the
                      FLRA.




                                  38th Semi Annual Report
                                        Page 45 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
2005 Financial        10. The process of updating                                 Open
Statement             the ability of accrued leave
Recommendations       should be conducted quarterly
Cont.                 in time for the fiscal quarter
                      accounting closed. This
                      updating should ensure fair
                      statement of the accrual by
                      obtaining accurate and
                      reliable data needed to
                      determine the accrual.

                      11. The process of updating                                 Open
                      the liabilities of accrued
                      FECA and Future Workers
                      Compensation should be
                      conducted quarterly in time
                      for the fiscal quarter
                      accounting closed. This
                      updating should ensure fair
                      statement of the accrual by
                      obtaining accurate and
                      reliable data needed to
                      determine the accrual.

                      12. Formal collection                                       Open
                      procedures should be
                      establish that included:
                           (a) The formal periodic
                      review of the account
                      receivable aged trial balance;
                           (b) The implementation
                      of procedures for contacting
                      delinquent accounts for
                      payment, such as sending
                      letters;




                                 38th Semi Annual Report
                                       Page 46 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                     Target       Actual Date   Status
Issued Date                                              Completion
2005 Financial             (c) The formal periodic
Statement             review of the account
Recommendations       receivable aged trial balance;
Cont.                      (d) A quarterly
                      assessment concerning the
                      collectibles of the
                      receivables; and
                           (e) The determination of
                      allowance for doubtful
                      accounts.

                      13. The FLRA should ensure
                      that the PAR is delivered by
                      the regulatory due date.

                      14. Lease agreements should
                      be reviewed for existing                                      Open
                      occupied and used spaces and
                      ensure each lease is accurate
                      and complete. Any omissions
                      should be addressed and
                      followed up with appropriate
                      written requests to the leasing
                      officer.

                      15. In conjunction with the                                   Open
                      back up of key accounting
                      positions, procedures are
                      established for a review of
                      manual adjusting journal
                      entries prior to entering to the
                      system.




                                  38th Semi Annual Report
                                        Page 47 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007
Report No.             Recommendation                  Target       Actual Date   Status
Issued Date                                            Completion

2005 Financial      16. FLRA should address                                        Open
Statement           whether alternative summary
Recommendations     level information can be
Cont.               posted to the general ledger for
                    the payroll interface. With
                    summary information by
                    department, the general ledger
                    would be greatly improved as a
                    monitoring and analysis tool
                    for management.
2006 Financial      1. The FLRA Chairman or                                        Open
Statement Audit     designated management
                    official oversee audit follow-
                    up including resolution and
                    corrective actions ensuring that
                    (a) high priority has been
                    assigned to the resolution of
                    audit recommendations and to
                    corrective action;
                    (b) systems of audit follow-up,
                    resolution and corrective
                    action are documented and in
                    place,
                    (c) timely responses are made
                    to all audit reports,
                    (d) disagreements are resolved,
                    and;
                    (e) corrective actions are
                    actually taken

                    2. Management address, the
                    adequacy of internal control in
                    Federal programs and
                    operation in compliance to
                    OMB Circular A-123.




                                38th Semi Annual Report
                                      Page 48 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.          Recommendation                     Target       Actual Date   Status
Issued Date                                            Completion

2006 Financial      3. Management and its
Statement Audit     employees establish and
Cont.               maintain an environment
                    throughout the organization
                    that sets a positive and
                    supportive attitude toward
                    internal controls and
                    conscientious management.

                    4. Management ensure that
                    FISMA is complied with and
                    that each year an independent
                    evaluation of information
                    security program and practices
                    of FLRA is done to determine
                    the effectiveness of such
                    programs and practices with
                    the deficiencies report with the
                    deficiencies reported under
                    those evaluations being
                    properly addressed and
                    resolved, and

                    5. Management ensure that
                    OMB Circular No. A-136,
                    “Financial Reporting
                    Requirements is adhered to by
                    the agency in all respects.

                    6. Management has failed to
                    respond to weaknesses in
                    control environments of
                    previous financial statement
                    audits and extensive amount of
                    FLRA Inspector General
                    findings and recommendations
                    stated to independent and
                    objective oversight activities.

                                 38th Semi Annual Report
                                       Page 49 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.          Recommendation                     Target       Actual Date   Status
Issued Date                                            Completion
2006 Financial      Management needs to evaluate                                  Open
Statement Audit     and audit, investigation and
Cont.               oversight report findings and
                    recommendations and provide
                    responses and resolution to all
                    issues addressed in these
                    reports.

                    7. Management must ensure                                     Open
                    timely recording of obligations
                    onto the general ledger

                    8. Management should                                          Open
                    establish independent
                    monitoring of Accounts
                    receivable to ensure proper
                    collection and/or resolutions.
2006 Financial      1. FLRA procedures are
Statement Audit     inadequate for the oversight of
                    financial accounting and
                    reporting. Management needs
                    to establish appropriate control
                    activities, communication and
                    monitoring of accounting and
                    financial reporting operations
                    in effect for the FLRA.

                    2. As stated in AICPA’s AU
                    Section 333 “Management
                    refused to furnish written
                    representation which
                    constitutes a limitation and
                    caused the auditor to disclaim
                    an opinion. Codification of
                    statements on Auditing
                    Standards indicates that the
                    Management letter is necessary
                    t


                                 38th Semi Annual Report
                                       Page 50 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007




Report No.          Recommendation                     Target       Actual Date   Status
Issued Date                                            Completion
2006 Financial      to confirm representations                                     Open
Statement Audit     given to the auditor.
Cont.               Management needs to comply
                    with this requirement.

                    3. Management must issue
                    PAR reports to Financial
                    Statement auditors and must be
                    completed in order to render an
                    audit opinion.

                    4. Procedures to review and
                    analyze unliquidated
                    obligations for the
                    determination of proper
                    liability and accrual and proper
                    obligated funds balance.

                    5. Management has failed to
                    follow-up and correct
                    previously identified
                    weaknesses in internal controls
                    and needs to be establish
                    adequate internal controls over
                    general ledger reconciliations
                    and supporting documentation
                    for general ledger balances.




                                38th Semi Annual Report
                                      Page 51 of 56
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007




Report No.           Recommendation                            Target       Actual Date   Status
Issued Date                                                    Completion
Internal Review of   1(a) The FLRA Executive Director
FLRA                 should immediately create a new
                     instruction for creating FLRA
Administrative       administrative instructions.
Policy 2007           (b) The FLRA Executive Director
                     should immediately review the
                     cancelled policies and have necessary
                     replacement policies issued as
                     quickly as possible.
                      c. The FLRA Executive Director
                     should address the review, update,
                     and/or revision of all FLRA
                     administrative instructions issued
                     over 5-7 years ago, especially those
                     related to Human Resources,
                     Security Contracting, Procurement
                     and Financial Statement/Budgeting
                     and Accounting.

                     2. The FLRA Executive Director
                     should immediately review all
                     current instructions without
                     Executive Directors signature and
                     sign or attach a signature to all
                     instructions implemented during the
                     last 7 years that have not been
                     removed.
                     3. The FLRA Executive Director
                     should review the 6 listed
                     instructions that are on the FLRA
                     website and cancellations list. If they
                     are acceptable as current policy,
                     remove them from cancellations list.
                     If they are acceptable as current
                     policy, remove them from the
                     cancellation list. If they should be
                     cancelled, removed them from the
                     FLRA instruction website.




                                    38th Semi Annual Report
                                          Page 52 of 56
                                                   TABLE I

             INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS
                                       NUMBER OF REPORTS    DOLLAR VALUE
 A. For which no management decision has been           2004, 2005, 2006 Financial
 made by the commencement of the reporting                  Statement Audit          No Questioned Costs
 period.                                                   Corrective Actions
 B. Which were issued during the reporting              2006 Financial Statement
 period?                                                          Audit

 C. For which a management decision was made
                                                                  None
 during the reporting period.
           (i) Dollar value of disallowed costs.

          (ii) Dollar value of costs not disallowed.       The Chairman must
                                                           approve all budget
                                                             expenditures.

 D. For which no management decision has been                  18 previous
 made by the end of the reporting period.               2004, 2005,2006 Financial
                                                            Statement Audit
                                                           Corrective Actions

                                                  TABLE II

INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE
PUT TO BETTER USE
                                  NUMBER OF REPORTS    DOLLAR VALUE
A. For which no management decision has been           Inspector General
made by the commencement of the reporting              recommendation to conduct
period.                                                an independent contracted         $85,000.00
                                                       technical information
                                                       security technology audit,
                                                       2006 Financial Statement
B. Which were issued during the reporting
                                                                Audit
period?

C. For which a management decision was made              No response provided.
during the reporting period.
          (i) Dollar value of recommendations that
                                                                 None
          were agreed to by management.
          (ii) Dollar value of costs that were not     No response to IG request
          agreed to by management.                     for funds for 2007 Security    $85,000. 00
                                                       Technology Audit provided.

D. For which no management decision has been            2006 Financial Statement
made by the end of the reporting period.                          Audit
                                                       Findings/Recommendations




                                        38th Semi Annual Report
                                              Page 53 of 56
                      FEDERAL LABOR RELATIONS AUTHORITY
                            Office of the Inspector General
                            Oversight Activities Summary
                          April 1, 2007 – September 30, 2007

SUBJECT                                                                    STATUS

Administrative Investigations                                                   6
                                                                             Closed
2007-I- 06

2007-I -07                                                                    Closed
                                                                           Forwarded to
                                                                               FPS
                                                                            Battlecreek
                                                                             Michigan
2007-I- 08 Investigation                                                      Closed
                                                                             8-07-07
2007-I-09 Investigation                                                       Closed
                                                                             8-08-07

2007-I-10 Investigation                                                      Closed
                                                                            10-07-07

                                                                             Closed
2007-I-11 –Investigation
                                                                            10-23-07

Inspector General Hotline Calls: During this reporting period IG handled
1 Hotline Call                                                               Closed
                                                                             8-10-07
2007-_H-09


                     FEDERAL LABOR RELATIONS AUTHORITY
                           Office of the Inspector General
                        CORRECTIVE ACTION SUMMARY
                         Apri1 1, 2007 – September 30-2007
New Corrective Actions                                                         32

Open Corrective Actions Carried Over                                           172

Total Actions Closed This Period                                                0

Total to be Carried Over                                                       204


                                   38th Semi Annual Report
                                         Page 54 of 56
Definitions

Actions

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is necessary.

Funds Be Put To Better Use

The amount of savings estimated by the Inspector General that could be obtained by
implementing report recommendations relating to more efficiency and effectiveness of
programs and operations.

Management Decision

A final decision made by management in response to audit report recommendations
that may include actions concluded to be necessary or a determination that no action is
necessary.

Management Letter

This document brings to the attention of management any of a broad range of issues
and subjects which should be addressed by management, but do not require formal
audit or investigation. Management letters are generally unplanned and are issued to
report on situations found in conjunction with an on-going or completed audit or
investigation. These letters may also be used to expand on previously issued audit
report recommendations.

Questioned Costs

Expenditures questioned by the Inspector General are usually due to the following:

Unsupported costs, which involve inadequate documentation; Disallowed costs, which
involve an alleged violation concurred with by Managements Decision of a law,
regulation, grant, contract, or another agreement; or unnecessary costs which involve
unnecessary or wasteful spending.




                                38th Semi Annual Report
                                      Page 55 of 56
REPORT FRAUD, WASTE, ABUSE, AND MISMANAGEMENT

                          TO

    THE FEDERAL LABOR RELATIONS AUTHORITY

       OFFICE OF THE INSPECTOR GENERAL

                     HOTLINE

          1-800-331-3572 (24 hr. service)

                  202-218-7744

                     or write to

                        FLRA

            Office of Inspector General

                1400 K Street, NW

                     Suite 250

             Washington, D.C. 20424




                 38th Semi Annual Report
                       Page 56 of 56
